E-Mail Address: 775 H Street, N.E.
Est Joa briefs@wilsonepes.com Washington, D.C. 20002

WSO PT Web Site: Tel (202) 789-0096
eco www.wilsonepes.com Fax (202) 842-4896
No. 19-123

SHARONELL FULTON, e¢ al.,
Petitioners,

v.

CITY OF PHILADELPHIA, et al.,
Respondents.

AFFIDAVIT OF SERVICE

I HEREBY CERTIFY that on August 20, 2020, three (3) copies of the BRIEF OF THE
LEADERSHIP CONFERENCE ON CIVIL AND HUMAN RIGHTS, LAWYERS’ COMMITTEE
FOR CIVIL RIGHTS UNDER LAW, AND 28 OTHER ORGANIZATIONS AS AMICI CURIAE IN
SUPPORT OF RESPONDENTS in the above-captioned case were served, as required by U.S.
Supreme Court Rule 29.5(c), on the following:

MARK LEONARD RIENZI VANITA GUPTA
THE BECKET FUND FOR RELIGIOUS LIBERTY MICHAEL ZUBRENSKY
1200 New Hampshire Avenue, NW GAYLYNN BURROUGHS
Suite 700 THE LEADERSHIP CONFERENCE ON CIVIL AND
Washington, DC 20036 HUMAN RIGHTS
(212) 955-0095 1620 L Street NW, Suite 1100
Counsel for Petitioners Sharonell Fulton, et al. Washington, DC 20036
LESLIE COOPER KRISTEN CLARKE
AMERICAN CIVIL LIBERTIES JON GREENBAUM
UNION FOUNDATION DARIELY RODRIGUEZ
125 Broad Street NoAH B. BARON
New York, NY 10004 LAWYERS’ COMMITTEE FOR CIVIL RIGHTS
(212) 519-7815 UNDER LAW

Counsel for Intervenor-Respondents Support fr ook See aoa 900
Center for Child Advocates and Philadelphia ashington,

Pride Counsel for Amici
NEAL KUMAR KATYAL JEFFREY B. WALL
HOGAN LOVELLS US LLP Acting Solicitor General
555 Thirteenth Street, NW UNITED STATES DEPARTMENT OF JUSTICE
Washington, DC 20004 950 Pennsylvania Avenue, NW
(202) 637-5528 Washington, DC 20530

Counsel for Respondents City of Philadelphia, Solicitor General
Department of Human Services for the City
of Philadelphia, and Philadelphia
Commission on Human Relations
The following email addresses have also been served electronically:

lcooper@aclu.org
neal.katyal@hoganlovells.com
mrienzi@becketlaw.org
toddanten@quinnemanuel.com
kathleensullivan@quinnemanuel.com

DRodriguez@lawyerscommittee.org
zubrensky@civilrights.org
supremectbriefs@usdoj.gov
ellydethompson@quinnemanuel.com
jomairecrawford@quinnemanuel.com

ih.

ROBYN DORSEY WILLIS

WILSON-EPES PRINTING COMPANY, INC.
775 H Street, N.E.

Washington, D.C. 20002

(202) 789-0096

Sworn to and subscribed before me this 20th day of August 2020.

 

NOTARY PUBLIC
District of Columbia

My commission expires April 14, 2022.

 
